REPORT OF INVESTIGATION 

          CASE# OIG-601 

           March 5, 2014 





       Office of Inspector General 



U.S. Securities and Exchange Commission 

                                   REPOIRT OF INVESTIGATION 


             UNITED STATES SECURITIES AND EXCHANGE COMMISSION 

                        OFFICE OF INSPECTOR GENERAL 


                                            Case No. OIG-601 


                    Unauthorized Disclosure of Nonpublic Information From 

                           Executive Session Commission Meeting 


                    Introduction and Summary of Results of the Investigation 


       The Securities and Exchange Commission (SEC or agency) Office of Inspector General
(OIG) learned from Chair Mary Jo White's Deputy Chiefof Staff, Erica Williams, that
Commissioner Michael Piwowar had raised concerns to Chair White about the unauthorized
disclosure of nonpublic information from a Commission meeting. Specifically, Commissioner
Piwowar expressed concerns that the results of the Commission's deliberations and voting during
a September 12,2013, Executive Session Commission Meeting about J.P. Morgan had been
disclosed without authorization to Sarah L ch a r orter from Reuters. OIG investigators met
with 0 · 0                                           on September 18, 2013. 1\~~~~/b) kold the
OIG that       ad a telephone conversation with Lync on September 17, 2013, during which
Lynch recited details about the September 12,2013, Executive Session that were nonpublic. See
September 19, 2013, Memorandum of Activity (MOA), Receipt of Complaint. Subsequently,
the OIG opened an investigation into the unauthorized disclosure ofnonpublic information.

        The OIG was unable to conclude which specific individual or individuals had improperly
disclosed information from the September 12,2013, Commission Meeting. However, the OIG
determined that a Commissioner and two SEC staffmembers had separately spoken with Lynch
and one SEC staff member had spoken with Reuters reporter Emily Flitter around the time that
the information was improperly disclosed. The OIG also found that one of those employees may
have confirmed certain information.

      The OIG also learned during its investigation that an SEC Commissioner transmitted
nonpublic information over nonsecure email. Further, one employee may have improperly
conducted Commission business using his personal nonsecure email.

                                        Scope of the Investigation

        In conducting this investigation, the OIG requested SEC emails and BlackBerry records
and interviewed the SEC Commissioners and numerous staffmembers (collectively referred to
as SEC employees) who attended or had infonnation relevant to the September 12, 2013,
Executive Session. In all, the OIG reviewed emails and BlackBerry records for 39 SEC
employees and interviewed 53 SEC employees. Those interviewed included the SEC Chair and


This document contains sensitive law enforcement material and is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from tbe Office of Inspector
General. Disclosure of tbe document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to liability. Public: avallabUity wiD be determined under 5 U.S.C. §§ 552, 552a.
the Commissioners; five employees of the Office of the Chair; 18 employees of the Offices of
the Commissioners; three employees of the Division of Enforcement (Enforcement); 14
employees of the New York Regional Ofliee (NYRO) ; five employees of the Office of the
Secretary (OS) ; and three employees of the Office of the General Counsel (OGC).

        The OlG requested and obtained the attendance roster for the September 12, 2013,
Executive Session, which OS had created and maintained. The OlG learned , however, that this
roster did not include (b (6).(b) l( l                          ho may have attended the meeting.
Further, according to        sta , tt ts posst c t1at ot 1ers were in the Closed Commission Meeting
room during the Executi ve Session deliberations and voting. Ultimately, because of the process
by which attendance is tracked and veri lied, the OIG was unable to obta in a complete listing of
those in attendance at the September 12, 20 13, Executive Session.

        To detennine whether any SEC employees had contacted Lynch by telephone, OIG
investigators, during the interviews, manually reviewed each of the interviewed SEC employees'
office telephone records and confinncd whether the employees had deleted any records from
their telephones. In addition, the OlG asked all SEC employees interv iewed whether they had
any communications, such as phone calls, texts, emails, or in-person conversations, about the
Executive Session held on September 12, 20 13, with anyone inside or outside of the SEC,
including any members of the media , generally, and Reuters, specifically. The OlG asked all
SEC employees interviewed whether they shared any nonpub lic infotmation about the Executive
Session or were aware of anyone who may have shared nonpublic infonnation.

        The OIG obtajned written minutes and an audio recording of the September 12, 20 13,
Executive Session. See October 23, 2013, MOA, Receipt of Execut ive·Session Minutes and
Audio Recording. The OIG requested an interview with Lynch, but Lynch declined. See
November 8, 2013, MOA, Phone Call with Sarah Lynch. The OIG also requested interviews
with Reuters reporters Emily Flitter and Michael Goldstein, who, wi th contributions from Lynch,
wrote a September 17, 20 13, article that contained nonpublic infonnation from the Executive
Session; Flitter and Goldstein each declined. See January 3, 20 14, and January 6, 2014, MOAs,
Telephone Cal ls to Emily Flitter and Michael Goldstein. In addition, the O!G requested an
interview with Aruna Yiswanatha, who, with Lynch, wrote a September 26, 20 13, article that
contained nonpublic infonnation from the Executive Session; Yiswanatha declined . See
February 25, 2014, MOA, Telephone Call to Aruna Yiswanatha. The OlG also obta ined record s
of Lynch's, Flitter's, Goldstein's, and Yiswanatha 's access to the SEC headquarters build ing in
September and October 2013. See December 5, 20 13, MOA, Receipt of Building Access
Records for Sarah Lynch; January 23, 20 14, MOA, Request for Building Access Records for
Emily Flitter and Michael Goldstein; March 5, 20 14, MOA Receipt of Building Access Records
for Aruna Yiswanatha.

      Finally, after discovering, through our review of emails, that a Commissioner and an
employee sent inf01matio n outside the SEC by nonseeure email, the OlG obtai ned copies of

                                                            2
This doc umen t cont a ins sensitive law e nforce ment material a n d is t he p r operty of the O ffi ce o f Inspector
General. It may not be cop ied o r repr od uced without prior pe rmission fro m th e O ffi ce of Inspector
Gener a l. Disclos ure of th e document or its co nte nts to un a uthorized person s is s tric tly p rohibited a nd may
subject Ute disclosing par ty to liability. Public availability wiU be determined under 5 U.S.C. §§ 552, 552a.
training s lides for the Office of Information Technology's Cybersecurity and Privacy Awareness
Training and records of completion of this training. See January 14, 2014, MOA, Receipt of
Cybersecurity Training Materials.

                               Relevant Policies, Rules, and Regulations

Standat·ds of Ethical Conduct for Employees of the Executive Branch, Usc of Nonpublic
I nfor m ation

       The U.S. Office of Government Ethi cs (OGE) Standards ofEthical Conduct for
Employees of the Executive Branch state, in relevant part: "An employee shall not . .. allow the
improper usc of nonpublic information to further his own private interest or that of another,
whether through advice or recommendation, or by knowing unauthorized disclosure." 5 C.F.R.
§ 2635.703(a). OGE defines nonpublic information as follows:

                 [N]onpu blic information is infonnation that the employee gains by
                 reason of Federal employment and that he knows or reasonably
                 should know has not been made available to the general public. It
                 includes information that he knows or reasonably should know:

                 (I) 	   Is routinely exempt from disclosure under 5 U .S.C . 552 or
                         otherwise protected from disclosure by statute, Executive
                         order or regulation;

                 (2) 	    Is designated as confidential by an agency; or

                 (3) 	   Has not actually been disseminated to the general public
                         and is not authorized to be made available to the public on
                         request.

5 C .F.R. § 2635.703(b).

SEC's Regulation Concerning Conduct of Members an d Employees and Former Members
and Employees

        The SEC's conduct regulation provides the following:

                 A member or employee of the Commission shall not ... [d]ivulge
                 to any unauthorized person or release in advance of authorization
                 for its release any nonpublic Commission document, or any
                 infmmation contained in any such document or any confidential
                 information: (A) In contravention of the rules and regulations of


                                                        3

This document contains sensitive taw enforcement material and is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from the O ffice of Inspector
General. Disclosure of t he document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to lia bility. Public availability will be determined under 5 U.S.C. §§ 552, 552a.
                 the Commission promulgated under 5 U.S.C. 552, 552a and 552b;
                 or (B) in circumstances where the Commission has determined to
                 accord such information confidential treatment.

17 C.F.R. § 200. 735-3(b)(2)(i).

Closed Commission Meetings

        The Government in the Sunshine Act (5 U.S.C. § 552b) requires that Commission
meetings be open to the public unless the subject ofthe meeting falls under a statutory
exemption. The SEC's regulation on closed meetings provides, in relevant part, that a
Commission meeting will be closed to the public if the meeting is likely to: disclose matters
specifically exempted from disclosure by statute; involve consideration ofwhether to institute,
continue, or conclude administrative proceedings or any formal or informal investigation
alleging any violation ofany provision of the Federal securities laws or the rules and regulations
thereunder; disclose investigatory records or information which could interfere with enforcement
activities or disclose investigative techniques and procedures; or specifically concern the
Commission's consideration of or actual participation in a civil action or proceeding.

17 C.F.R. § 200.402(a)(3), (5), (7), and (1 0).

Press Relations Policies and Procedures

       SEC Administrative Regulation (SECR) 18-2, Press Relations Policies and Procedures
(July 31, 2005), provides as follows:

                 It is a violation ofthe SEC's conduct regulation, and may be a
                 violation of other SEC rules and ofprovisions ofthe securities
                 laws, for any employee to reveal nonpublic information unless
                 specifically authorized to do so by formal SEC action, either
                 directly or through delegated authority. This prohibition includes,
                 but is not limited to, any information regarding an SEC law
                 enforcement investigation, whether formal or informal; and any
                 information regarding internal SEC documents, such as staff
                 memoranda to the SEC. . . . [S]taff members should deem official
                 releases, litigation releases and any other announcements ofSEC
                 actions to be nonpublic until release by OPA [Office of Public
                 Affairs].

SECR 18-2, Section B.5 (Nonpublic Information).




                                                       4

This document contains sensitive law enforcement material and is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspector
General. Disclosure of the document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to liability. Public availability will be determined under S U.S.C. §§ 552, S52a.
        SEC Administrative Regulation 18-2 also states:

                (S)taffmembers should be cautious about expressing statements of
                personal opinions. Such statements may be erroneously perceived
                as official statements of the SEC, as reflecting SEC policy, or as
                official interpretations ofSEC policy.

SECR 18-2, Section B.8 (Expressions ofPersonal Opinion).

        SEC Administrative Regulation 18-2 further states:

                Official announcements ofthe SEC ... are released to the press
                and the public by OPA. Staff members should keep in mind that
                such announcements, including all official releases of the SEC, are
                not public until released by OPA.

SECR 18-2, Section B.10 (Announcement ofSEC Actions).

Disclosure of Confidential Information

       An officer or employee of the United States or ofany department or agency thereof is
prohibited from publishing, divulging, disclosing, or making known in any matter not authorized
by law any information the employee gained in the course ofhis employment or official duties
concerning or relating to trade secrets, processes, operations, or style of work.

18 u.s.c. § 1905.

Records Management by Federal Agencies

         The head ofeach Federal agency shall make and preserve records containing adequate
and proper documentation ofthe organization, functions, policies, decisions, procedures, and
essential transactions of the agency and designed to furnish the information necessary to protect
the legal and financial rights ofthe Government and ofpersons directly affected by the agency' s
activities. 44 U.S.C. § 3101. Records are defined as:

                [A]ll books, papers, maps, photographs, machine readable
                materials, or other documentary materials, regardless of physical
                form or characteristics, made or received by an agency ofthe
                United States Government under Federal law or in connection with
                the transaction of public business and preserved or appropriate for
                preservation by that agency or its legitimate successor as evidence
                ofthe organization, functions, policies, decisions, procedures,

                                                      5

This dotument tontains sensitive law enfortement material and is the property of the Offite of lnspedor
General. It may not be topied or reproduced without prior permission from the Offite of Inspector
General. Dlsdosure of the dotument or its tontents to unauthorized persons is strictly prohibited and may
subject the distlosing party to Uabllity. PubUt availability will be determined under 5 U.S.C. §§ 552, 552a.
                 operations, or other activities of the Government or because of the
                 informational val ue of data in them.

44 U.S.C. § 330 I.

Office of Information Technology Rules of the Road Concerning Usc of Ema il

         All users of SEC computing and network facilities, including Federal employees and
contractors, must follow the SEC Rules of the Road, issued March I, 2004, and updated on June
23, 20 I 0, when using any SEC information technology source, including email. See Rules of the
Road, available at http://wagps.sec.gov/oitintranet/oit learn/rules.html. The SEC Rules of the
Road require SEC users to protect SEC n,:!tworks and automated system assets and prohibit them
from processing nonpublic information on non-SEC workstations unless such workstations are
equipped with SEC-approved protection software. !d.

        Rule No. 3 of the Rules ofthe Road, "Use E-mail Respons ibly and Sensibly," specifically
prohibits users from sending material that is sensitive or that contains personally identifiable
information to their personal email accounts. !d. Similarly, Rule No.7, "Don't Transmit Non­
public or Sensitive lnforrnation over Non-secure Systems" prohibits the transmission of
nonpublic information or sensitive data through the Internet or via email, un less it is encrypted
using the SEC' s approved encryption software. !d.

                                        Results of the Investigation

I.      R esults of t he Investigation of Un a u thor ized Disclosure of Non public Information

        A. 	T he Commission Held An Executive Session C ommission Meeting on S eptember
             12, 2013

       The Commission held a "Closed" Commission Meeting on September 12, 20 13. ln
addition to several regular calendar items, there were three Executive Session calendar items
scheduled. See the agenda, available at http://intranet.sec.gov/calendars/
commission calendar/september 2013/cal09122013.pdf. The Executive Sessions began at 2:59
p.m. and concluded at 3:15 p.m. See October 23, 2013 , MOA, Receipt o f Executive Session
Minutes and Audio Recording. During one of those Executive Sessions, the Commission
considered the NYRO's memorandum about J.P. Morgan Proprietary Trading Losses (NY­
8792). Jd.

       Chair White and Commissioner Gallagher recused themselves from the September 12,
2013, Executive Session about the J .P. Morgan matter; Commissioner Agui lar, as the most
senior Commissioner, chaired that Executive Session. See October 23, 2013, MOA, Receipt of
Executive Session Minutes and Audio Recording. The Commission voted 2-1 to approve the

                                                        6

This document contains sensitive law enfor cement materia l and is the pr operty of the O ffice of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspecto r
Gener al. Disclosure of the document or its contents to unauthorized persons is strictly proh.ibited a nd may
subj ect the disclosing par ty to liability. Public availability will be determined under S U.S.C. §§ 552, 552a.
 staffs recommendations on this matter; Commissioners Stein and Aguilar approved the matter,
 and Commissioner Piwowar disapproved the matter. !d.

        The Commission issued its public order in the matter on September 19, 2013. See
Release No . 34-70458, available at http://www.sec.gov/ litigation/admin/2013/34-70458.pdf.
Tnfonnation about the vote, including which Commissioners voted for and against the action and
the recusa l ofCommissioner Gallagher and Chair White, subsequent ly became avai lable to the
public through the SEC's Public Reference Room after the relea se of the public order on
September 19, 2013. See January 29, 2014, MOA, Discussion w ith Elizabeth Murphy.
Specifically, accord ing to the Secretary of the Commission, Elizabeth Murphy, OS received
authorization from SEC staff to release the J.P. Morgan order as of9 a.m. on September 19,
2013. Id. According to Murphy, per OS' informal policy, the order, including the vote
infonnat ion, wou ld have been delivered to the Publ ic Reference Room by October I0 or October
15, 2013, but would have been avai lable to the public, upon req uest, as of September 19, 2013.
Jd.

          B. T he C losed Commiss ion Meeting Execu tive Sess ion Policy

         On Ju ly 26, 20 t 3,l<ol<6l.(O)(?)(C)                                Iemai led a document
 entitled "Closed Co mmiss ion Meeting Executive Session Policy," dated July 25, 20 13, to all
 Commissioners, Commissioners' Counsel, and Division and Office heads. See September 19,
 20 13, MOA , Receipt of Complai nt. Thi s policy stated that Executive Session attendance was
 limited to certain staff members and that exceptions to the policy would be made at the discretion
 ofthe Office of the Chair. Id. According to Chair White, a leak from a prev ious Executive
 Session led to thi s "tightening" of the policy for attendance at Executive Session Commission
 meetings. See October 24,2013, MOA, Intervi ew ofChair White. Chair White stated that she
 did not put the Closed Commission Executive Session Policy up to the Commission for a vote
 because it was wit hin her authority to institute the policy and the policy is binding. !d.

            The policy placed limits on which staff are pennitted to attend Executive Sessions and
  limi ted attendance by Enforcement staff to the members of the Enforcement team who are
  making the presentation to the Commission. See September 19, 2013, MOA , Receipt of
  Complai nt. The policy stated that "[e]ach participating Commissioner could have one cou nsel or
  other advisor present." /d. However, the policy was amended per an August 8, 2013, email from
~~~l~~\(bJ !which stated that the Chair was "amenable to all Commissioners' counsel being present
  for all Executive Session matters, subject to possible future changes ...." !d.

        The policy fu1iher stated that "(i]t is expected that nonnally there will be no one sitting in
 the audience of the Closed Commission Meeting room during an Executive Sessio n." /d. The
 Executive Session policy also stated that in certain matters des ignated by the Chair, an "alternate
 voting procedure" would be employed. Jd. Specifically, this alternate procedure stated, "Before
 the vote is taken, the room will be cleared except for the Commissioners, the Enforcement co­

                                                              7

 This d ocumen t conta ins sens it ive law enfor cemen t materia l and is t he property of t h e O ffi ce of I nsp ecto r 

 Genera l. It may n ot be copied or reprodu ced without prior p ermission fro m th e O ffi ce of Inspec to r 

 Gene r a l. Disclosure of the document or its conten ts to una uthoriz ed persons is s trictly prohibited a nd may 

 s ubj ect the disclosing party to liabiJi ty. P ubli c availa biHty wiJI be dete rmined under 5 U.S.C. §§ 552, 552a . 

directors for enforcement matters, the General Counsel, and one representative from the Office
ofthe Secretary." /d.

       According to stafffrom OS, the practice is that, prior to the Executive Session meetings,
the Chair reads the following disclaimer: "Only staff authorized by the Commission's Executive
Session attendance policy should be in the room or on video." See September 30, 2013, MOA,
Contact with the Office ofthe Secretary.

         The OIG learned during interviews with staff from OS that, although OS staffare
 supposed to clear the room after each Executive Session matter and ensure attendance for each
 matter is limited to those on the approved roster, at times the Commissioners may begin
 announcing and/or deliberating the next matter before the room has been ·c leared from the
 previous matter. See October 29, 2013, MOA, (b)(G).(b)(l)(C) 	               OS stafffurther
 informed the OIG that it is possible for people stan mg outst e the Closed Commission Meeting
 room to hear the discussions and votes through the closed doors. Id.

               C. 	The Closed Commission Meeting Room Had Not Been Cle.a red Prior to the
                   Commissioners' Vote on September 12,2013

         At the start of the September 12, 2013, Executive Session, Commissioner Aguilar, as
acting Chair, announced that the Commission would vote on the three Executive Session matters
 at the conclusion of the Executive Session calendar. See October 23,2013, MOA, Receipt of
 Executive Session Minutes and Audio Recording. The OIG's investigation revealed that the
 Closed Commission Meeting room was not cleared before the voting. See September 19, 2013,
 MOA, Receipt ofComplaint. In their interviews with the OIG, members ofChair White's staff
 indicated that they approached Commissioner Aguilar about clearing the room before the
 Commissioners voted on the J.P. Morgan matter, but Commissioner Aguilar allowed eve one in
 the Executive Session to stay for the vote. SeeSe tember 25 2013, MOA, Interview of (b)(6 ),(b)(7l
~September 26, 2013, MOA, Interview o (b)(6),{b)(7)(


         Commissioner Aguilar told the OIG that he was uncertain who was supposed to leave for
 the vote and sought guidance from OS.                       9, 2013, MOA, Interview ofCommissioner
 Aguilar. He stated that (b)( .(b>(7><c>                      dvised him that certain people should leave
 the room, but stafffrom        stat        at tt was okay for everyone to stay and he relied on the
 advice that the stafffrom OS had rovided. /d. Commissioner Aguilar further stated that he
 asked (b)( ·   (C)                            who could stay for the vote andl(b)(e~.(b)(t)(c)      !had
                              6
 "seen it both ways." !d. (b)( ).        d (b •      confirmed that this conversatiOn took place. See
l (b}( 	 . b   }    I
 S~~~w 26 2013, MOA Interview o (b < ),(b)(7)(C)
                                I
                                                                 October 23 2013 MOA Interview of
                                                                                '      I        •




       During an October 10, 2013, Executive Session, Commission Aguilar stated that, because
 the Commission did not vote on the Executive Session Attendance Policy, he did not view it as a

                                                         8

 This document contains sensitive law enforcement material and Is tbe property of tbe Office of Inspector 

 General. It may not be copied or reproduced wilbout prior permission from tbe Office of Inspector 

 General. Disclosure of the document or its contents to unauthorized persons is strictly prohibited and may 

 subject tbe disclosing party to liability. Public availability will be determined under S U.S.C. §§ 552, S52a. 

Commission policy and therefore did not believe that he or his staff was bound by the Executive
Session Policy. See October 23, 2013 , MOA, Interview lib)(6),(b)(7)(c) ~

          D. Nonpublic Information From the Executive Session was Improperly Disclosed

        On September 17, 2013, at 3:50 p.m.,l<bJ(G).(b)(?)(C)
returned a 2:36p.m. telephone call from L c..,h_. ...,S~'~""-
                                                          ee~Sr-...,tr-em"""'T"b-er....,l'""9~,~2~01
                                                              ep                                   "3~,-rM-r.O~A-r--,R-ec-e....
                                                                                                                            ip~t-o..,.f__,
Complaint; September 24, 2013, MOA. (b)(6).(b)(?)(C) that, during this telephone call, Lynch
provided information from the September 12, 2013, Executive Session, including information
that, according to ~~~~~~(b) ~as "precisely'' what Commissioner Piwowar had stated during the
Executive Session. See September 19,2013, MOA, Receipt of Complain (b)(6),(b)(?) tated that
there was obviously a leak from the Executive Session because the order announcing the
settlement with J.P. Morgan had not yet been issued. !d.

        On September 17, 2013, Reuters published an article written by reporters Flitter and
Goldstein, with additional reporting by Lynch, entitled, "JPM's Whale troubles may not end with
civil settlement." See September 19,2013, MOA, Receipt ofComplaint. This article stated that
"a source told Reuters the [SEC] approved its portion ofthe civil settlement in a split vote." !d.
The article further stated:

                     In a split vote late last week, the SEC approved its portion of the
                     settlement with J.P. Morgan, according to people familiar with the
                     matter. Mary Jo White, the SEC chairman, and Daniel Gallagher,
                     an SEC commissioner, both recused themselves.

!d.                                                          a


       Pursuant to the settlement approved at the September 12, 2013, Executive Session, the
Commission issued an "Order Instituting Cease-and-Desist Proceedings" against J.P. Morgan on
September 19,2013. See Release No. 34-70458. Therefore, the Commission's approval ofthe
settlement was nonpublic information at the time ofpublication ofthe Reuters article on
September 17, 2013 . As stated previously, information about the vote subsequently became
available to the public through the SEC's Public Reference Room after the SEC issued the Order
on September 19,2013. See December 30, 2013, MOA, Receipt ofFOIA File from Public
Reference Room; January 29, 2014, MOA, Discussion with Elizabeth Murphy.

         On September 26, 2013, Reuters published an article by Lynch and Viswanatha entitled,
"SEC chair sa s bi fines key to attacking wrongdoing." See September 27, 2013, MOA, Email
from (b)(G).(bi(?)(c) hat article stated the following:

                     In a non-public meeting the week before the settlement was
                     announced, the SEC' s newest commissioner, Michael Piwowar, a

                                                                     9

This document contains sensitive law enforcement material and is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspector ·
General. Disclosure of the document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to Uability. PubUc availability will be determined under S U.S.C. §§ 552, SS2a.
                Republican, voiced concerns that the SEC was fining the company,
                as opposed to considering ways to levy penalties against top-level
               .executives at the bank, according to people familiar with the
                situation. The commissioners ultimately approved the settlement
                2-1, with Piwowar voting against it, the sources said. Democratic
                Commissioners Kara Stein and Luis Aguilar, who has long pushed
                for tougher penalties against companies, voted in favor ofit.

       !d.

       Commissioner Piwowar's comments made during the September 12, 2013, Executive
Session were not included in the Order issued on September 19, 2013 , and have not otherwise
been made available to the public. See Release No. 34-70458; January 31,2014, MOA, Email
from Elizabeth Murphy. Therefore, Commissioner Piwowar' s comments were nonpublic at the
time ofpublication ofthe Reuters article on September 26, 2013.

        E. The OIG Did Not Identify the Source of the Unauthorized Disclosure of
           Nonpublic Information

        The OIG interviewed the SEC Chair, SEC Commissioners, and 48 SEC staff members
about the unauthorized disclosure outside the agency ofnonpublic information concerning the
deliberations and vote from the September 12,2013, Executive Session. The OIG also obtained
and reviewed emails and BlackBerry records of39 SEC employeeS who attended or had
information relevant to the September 12, 2013, Executive Session.

        In addition, to determine whether any of the SEC employees interviewed had contacted
Lynch by telephone, the OIG manually reviewed each ofthe SEC employees' office telephone
records. The OIG asked all SEC employees interviewed whether they had communicated with
anyone, including the media, about the Executive Session held on September 12,2013. The OIG
also asked all .SEC employees interviewed whether they shared any nonpublic information about
the Executive Session or were aware ofanyone who might have shared nonpublic information.

        The OIG requested interviews with Reuters reporters Lynch, Flitter, Goldstein, and
Viswanatha, but they declined to be interviewed. The OIG also obtained SEC headquarters
building access records for Lynch, Flitter, Goldstein, and Viswanatha for September and October
2013. The OIG found that Lynch accessed the building on September 17, 18, 24, and 27, 2013
and on October 1, 8, 9, 17, 23, and 28,2013. See December 5, 2013, MOA, Receipt ofBuilding
Access Records for Sarah Lynch. The records obtained showed that Flitter, Goldstein, and
Viswanatha did not access the SEC headquarters building during this time frame. See January
23,2014, MOA, Request for Building Access Records for Emily Flitter and Michael Goldstein;
March 5, 2014, MOA, Receipt ofBuilding Access Records for Aruna Viswanatha. An analysis
of the records showing Lynch's access to the SEC headquarters building indicated that, on

                                                      10

This document contains sensitive law enforcement material and Is the property ofthe Office of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspector
General. Disclosure of the document or its contents to unauthorized persons Is strictly prohibited and may
subject the disclosing party to Uabillty. PubUc availability will be determined under 5 U.S.C. §§ 552, 552a.
several occasions, including on September 17, 2013, the date the first Reuters article regarding
the September 12, 2013, Closed Commission Meeting was published, Lynch entered the
headquarters building for an Open Commission Meeting. See February 14, 2014, MOA,
Analysis ofSarah Lynch Building Access Records. The records do not indicate with whom
Lynch may have visited that day and do not indicate how long Lynch was in the building. /d.

       The OIG's investigative efforts did not identify who improperly disclosed nonpublic
information about the Executive Session to Lynch or any other reporter.

        F. An SEC Commissioner and Three SEC Employees Spoke to Reuters Reporters

        The OIG determined that, in addition to Lynch's call t\~!6),(6)(7) Ithree of the 53 SEC
employees interviewed spoke with Lynch and one SEC employee spoke with Flitter around the
time nonpublic information about the September 12, 2013, Executive Session was improperly
disclosed.

             1. Commissioner Luis Aguilar

        A review ofCommissioner Aguilar's desk telephone records disclosed four calls placed
to one of Lynch's telephone numbers between September 12 and 19, 2013, including one
telephone call made approximately 35 minutes after the conclusion of the Executive Session on
the J.P. Morgan matter. 1 See September 24,2013, MOA, Review of Commissioner Aguilar's
Telephone Call History.

         Specifically, we noted outgoing calls to Lynch on September 12, 2013, at 3:50p.m.;
September 13,2013, at 11:11 a.m.; and September 16,2013, at 6:06p.m. /d. The OIG's review
disclosed that each of these calls showed a duration of zero (0) minutes. 2 /d. The OIG noted an
additional outgoing call to Lynch on September 19, 2013, at 4:58p.m., which lasted 26 minutes,
1 second. /d. Commissioner Aguilar told the OIG that he could state with "pretty high certainty
. .. at least 99.99% sure" that he did not talk to Lynch about the J.P. Morgan deliberations and
voting results from the September 12, 2013, Executive Session. See October 9, 2013, MOA,
Interview of Commissioner Aguilar.

       A September 17, 2013, email from Lynch to Commissioner Aguilar, at 1:36 p.m., stated,
"Good to see you today, however brief," indicating that he saw Lynch on that day. See October
9, 2013, MOA, Email Search. According to building access records, Lynch was in the SEC
headquarters building for an Open Meeting on September 17,2013. See December 5, 2013,

1
             _ )(?)(Ci
       )( 6).(b.,.....
 \PI(b""_             ~------liProvided
                               .        two telephone numbers for Lynch. See September 19,2013, MOA, Receipt
o~Complamt.
2
  The OIG determined that a call shows a duration of zero (0) minutes ifa call is placed but not answered by either
the call recipient or voicemail.

                                                         11

This document contains sensitive law enforcement material and is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspector
General. Disclosure of the document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to liability. Public availabUity will be determined under S U.S.C. §§ 552, SS:Za.
MOA, Receipt ofBuilding Access Records for Sarah Lynch. However, Commissioner Aguilar
informed the OIG that, while he believes he saw Lynch at the SEC's Small Business
Administration meeting that day, he does not believe he talked to her that day. See October 9,
2013, MOA, Interview ofCommissioner Aguilar.
            l . . rs'(6) (6)(7)(C)

   l(ol<6l.(OJ~(C)                           ~old the OIGI~~~ ~~)i(b) ~poke with Lynch
~erson cei(Rhone at 2:30p.m. on. September 17, 2013. See September 24,2013, MOA,
~ew ofl(b)(6).(o)(7 c )               !stated that Lynch askediDhy Commissioner Piwowar
voted against the J.P. Morgan settlement,lmi~/o> Ires onded "I don't know. I don't think it's
fair. Go fi~. it out." ld. On November 12 2013                  rovided a sworn statement to the
OIG aboutJ!WJnteractions with Lynch. (OJ(6 J.(OJ(?J( >              stated that Lynch asked ''why
Mike [Piwowar] voted against the JPMorgan case," ~ c ·     0
                                                              enerally recalled responding, "I
don't know. It doesn't ser fair. I haye to go." Sr ovember 11,2013, MOA,
Statement/Affidavit from!:J.(OJ(?J(CJ                  explainedm-esponse to Lynch as follows:

                  At the time, I had the impression that Ms. Lynch knew the vote
                  count and that she was seeking additional information. I did not
                  intend to confirm, nor did I believe I had confirmed, exactly who
                  voted on the case or what their votes were.

!d.




            3.   l(b)(5)


    l<b>:).cb>~c)                                    ltold the OIG that ~~l~g(oJ
commurucat with Lynch, usingruBlackBerry, about a week after the Executive ession. See
September 30, 2013, MOA, Interview o (b)(6 ),(b )(7)(C)        A review ofBlackBerry call records
disclosed three phone calls fro (b l(6 l .(b)(7)(C)     on September 19, 2013, at 1:13 p.m. (2
minutes), 1:56 p.m. (2 minutes), and 2 p.m. (30 minutes). See October 29 2013, MOA, Receipt
and Analysis ofBlackBerry Call Records for September 2013. >< l.(o}(?l<CJ tated that Lynch had
asked for confirmation ofdetails from the Executive Session (b)( l bl id not provide
confirmation ofany details, including that the Executive Session resulted in a split vote. See

                                                     12

This document contains sensitive law enforcement material and is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspector
General. Disclosure of the document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to UabiUty. Public: avaUabiUty will be determined under 5 U.S.C. §§ 552, 552a.
September 30, 2013, MOA, Interview o~(o)(6 ).(o)(t)(c)        lsaid it was clear that Lynch had
spoken to someone else, because of the level ofdetailed information that she had about the
Executive Session. !d.

      l
       <o)<6).<o)(7)(c)             Iconfirmed to Lynch that Commissioner Gallagher recused himself
from the J.P. Morgan matter, but did not tell her why. 7 c· said that it "seemed absurd not to
confirm" Commissioner Gallagher's recusal. !d. (b}(6),(b}(7} stated that neither Commissioner
Gallagher nor anyone else had givenHb)(6 Japprova to tsc ose Gallagher's recusal in this matter.
!d. However, upon requesting to provide additional information to the OIG, l\~.(6),(b)(7)           I
subsequentl stated that, per an unwritten directive from Commissioner Gallagher issued
sometime in ~~i ).(o <l ad approval to disclose Commissioner Gallagher's recusal. See March 4,
2014, MOA, ntervtew ofl(b}(6},(b}(7)(C)             I In his interview with the OIG, Commissioner
Gallagher stated that he did not view the disclosure of his recusal as the disclosure of
confidential information. See October 23, 2013, MOA, Interview ofCommissioner Gallagher.
As noted above, the fact that Commissioner Gallagher recused himself was publicly available
through the SEC's Public Reference Room on September 19, 2013, the same day that J(b)(6),(b)(7)(l
spoke with Lynch.
                 _ r )(6).(b)(7)(C)
            4

            l(o)(GJ.~)(i)(~                                          ltold the OIG that, on September 19,
2013 , (the rstay that the J.P. Morgan issue would have been available for public review <~l<~.(b)
received an email from Office ofPublic Affairs Director John Nester requesting~~~l~~/o)              Fal
Reuters journalist Flitter to provide background information about the J.P. Morgan
         · ·
(b)(6),(b)(7)(C)
                      ·ve Proceeding released that day. See October 17, 2013, MOA, Interview ofl\~.(6),(b)(7)    I

           I<OJ(GJ,(b)(?)(CJ  bpoke with Flitter shortly after receiving Nester's email and
provided a ''plain English" background ofthe allegations in the September 19, 2013, J.P. Morgan
   rder Institutin Cease-and-Desist Proceedings. See January 27, 2014, MOA, Followup with
(bJ(G).(bJ(?J(C)             elephone conversation with Flitter was two days after the publication
of the September 17, 2013, article that included nonpublic information about the Executive
Session. See September 19, 2013, MOA, Receipt ofComplaint.l<bJ(GJ,(bJ(?J(CJ         ~id not
provide any nonpublic information to Reuters about the Executive Session held on September
12, 2013. See October 17, 2013 , MOA, Interview ofl<bJ(GJ,(bJ(?J(CJ              I
II.     Other Matters

        A. Commissioner Aguilar Emails

     During the course of reviewing emails for this investigation, the OIG determined that
Commissioner Aguilar sent nonpublic information related to enforcement matters to his personal

                                                       13

This document contains sensitive law enforcement material and Is the property of the Office of Inspector
General. It may not be copied or reproduced without prior permission from the Office of Inspector
General. Disclosure of the document or Its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to liability. Public availability will be determined under 5 U.S.C. §§ 552, 552a.
email account. See October 9, 2013, MOA, Email Search. Specifically, between September 22
and 27,2013, Commissioner Aguilar sent II emails with a total of 13 attachments containing
nonpublic infonnation. !d. In an interview with the O lG, Commissioner Aguilar stated that he
could not print documents at home when connecting to the SEC network through hi.s G-On and,
as a result, forwarded emails to his personal emai l account when he needed to print certain
documents. See October 9, 2013, MOA, Interview ofCommissioner Agui lar.

        Comm issioner Agu ilar stated that he did not view sending nonpublic SEC information to
his personal emai l account as a problem and was not aware that doi ng so violated the SEC's
Rules of the Road. !d. However, the OIG determined that Commissioner Aguilar had comp leted
annual Security and Privacy Awareness Training, most recently on September I0, 20 13, that
discussed the Rules of the Road and, specifica lly, the prohibition on sending nonpublic
informatio n to personal email accounts. See January 14,20 14, MOA , Receipt ofCybersecurity
Training Materials.

                                IEmails



        Emails thatl\~1)~/bl Iforwarded to the OIG revealedl<ol<6l.(o)(i)(C) !discussed with Lynch
information related to Commissioner Stein's comments made at a September 18, 20 13, Open
Meeting regarding the adoption of the Registration of Municipal Advisors rule. !d. See also
Commjssioner Stein 's comments from the open meeting, available~..............,......
http://www.sec.gov/News/Speech/Detail/Speech/ J370539818176. ~~l<6l.(b)(?l iscussed the
follow ing Commission-related infonnation with Lynch via email:

              I. 	 September 18, 2013: Lynch emai led l<bl(6),(b)(?)(C)       !personal emai l address
                  during the Open Meeting aski ng for information about the author of the comment
                  letter that "swayed the staft:" Ln response,l(b)(6),(b)(7) Iprovided the name of the fi nn
                  that wrote the comment letter.

             2. 	 September 19,2013: Lynch emai led l<b)(6),(b)(?)(c)     !perso nal email address,
                  stating "I know I have asked several questiOns on the same subject the pas t few
                  days but wondering if I can chat on background once more briefly." In response,
                1)~,(6),(b)(?) !stated, "As you could sec, Commiss ioner [S]tcin loves attestations.
                  Nothing else to share."

See September 24, 2013, MOA, Interview o~L.(b-_<
                                             )(s)._5)t___
                                                       7
                                                         )(c)_ _ _...J



                                                         14

This document contains sensitive law enforcement mnterialand is the property of t he Office of In spec tor
Genernl. It may not be copied or re produced without 1>rior p ermission from the Office of Insp ector
Gen er al. Disclosure of the document or its contents to una uthorized persons is s trictly prohibited and may
subject the disclosin g party to liability. Public avnilability will be d eter·min ed under 5 U.S.C. §§ 552, 552a.
           (b)(e).(b (?) c                                                 eard about the leak ofinformation from the September 12,
2013, ......._x-ec_u....,.tt....v_e....,......e-ss.. t-o""""'~,...o-rw-ar_.ed
                                                     .                        all emails from Lynch and other press contacts from~
                                                6
personal email tol(bH hec.gov email and informed all of!(b)(6 bress contacts to contact the SEC's
Office ofPublic Affairs for all future press inquiries. Id.




                                                         Conclusion

       The OIG investigation found that nonpublic information about the J.P. Morgan Executive
Session was in a September 17, 2013, article by Flitter, Goldstein, and Lynch, and a September
26, 2013, article by Lynch and Viswanatha. The OIG was unable to conclude which specific
individual or individuals improperly disclosed nonpublic information from the Executive
Session. Further, we did not identify any emails from SEC staff forwarding information or
providing details of the Executive Session to Lynch or any other member of the press.

       The OIG determined that lib)(6).(b)(7)(c) land Commissioner Aguilar spoke with
Lynch and that~poke with Flitter around the time that nonpublic information was
disclosed, and~ may have confirmed information obtained by Lynch.

         The OIG 's review of SEC telephone and Bl[~r~fJfn] records identified the following
calls to Lynch during the relevant time period: (1) c ·     Lynch on September 17, 2013; (2)
Commissioner Aguilar to Lynch on September 12( 13, 16, and 19, 2013; and (3)l(b)(6),(b)(7)(C) I
Lynch on September 19, 2013. In addition,l(b)(6).(b) 7)(6)    lmade calls to Lynch on
September 17, 2013 .

        The OIG found evidence that Commissioner Aguilar had sent nonpublic information to
his personal email account from his SEC email account contrary to the SEC's Rules ofthe Road.
In addition, H~/)~/b) !had used~ personal email account to communicate with and provide
Commission-related mformation to reporters_E6).(b)(7)(C)
and subsequently forwarded those emails to ~IMJ~
                                              > 'I":S:-:E~c=--em-a':":'il_a_c_co_u_n_t-
                                                                                     . ------------'

       We have concluded our investigation and are referring the report to the Commission for
appropriate action.




                                                                15

Thls document contains sensitive law enforcement material and is the property of the Office of Iospector
General. It may not be copied or reproduced without prior permission from the Office of Iospector
General. Disclosure of tbe document or its contents to unauthorized persons is strictly prohibited and may
subject the disclosing party to liability. PubHc availability will be determined under 5 U.S.C. §§ 552, 552a.
            (b)(6),(b)(7)(C)




Submittc<                                                     Date:        3-S- /'( 


Concur:                                                       Date:




Approved: ~~~                                                 Date:
                    Carl W. Hoecker
                                                      ----




                                                       16 


This document contains sensitive law enforcement ma terial a nd is the property of the Office of Inspector
Gencrnl. It may not be copied or reproduced without prior permission from the Office of Inspector
Gcncnll. Disclosure of the document or its co ntents to una uthorized persons is strictly pro hibited and may
subject the disclosing party to liability. Public availability will be deterntined under 5 U.S.C. §§ 552, 552a.
